             PENTAGON RESERVATION MAINTENANCE
                    REVOLVING FUND


Report No. D-2001-153                      July 2, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CIP                   Construction in Progress
FMR                   Financial Management Regulation
PRMRF                 Pentagon Reservation Maintenance Revolving Fund
WHS                   Washington Headquarters Services
                       Office of the Inspector General, DoD
Report No. D-2001-153                                                     July 2, 2001
 (Project No. D2001FH-0045)

            Pentagon Reservation Maintenance Revolving Fund

                                Executive Summary

Introduction. We performed the audit to support the requirements of the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. DoD real property, valued at $100.9 billion in FY 2000, represented
90 percent of the $112.5 billion investment made by DoD in property, plant, and
equipment. Real property also represented 16 percent of the total assets reported on the
FY 2000 DoD Agency-Wide Consolidated Balance Sheet. Consequently, the DoD
must accurately report property, plant, and equipment in order for the Government to
achieve a favorable opinion on the consolidated financial statements of both the DoD
and the Federal Government. The DoD incorporates the Pentagon Reservation
Maintenance Revolving Fund into the Other Defense Organizations in its financial
statements. The Washington Headquarters Services manages this fund, which has
financed at least $878.7 million of construction. Congress has specified that the total
cost for the planning, design, construction and installation of equipment for the
renovation of the Pentagon Reservation could not exceed $1.2 billion. However, the
Office of the Deputy Secretary of Defense tasked the Pentagon Renovation Program
with ancillary projects outside of its original scope of work. This requires the program
to distinguish between renovation projects that fall within the $1.2 billion spending limit
set by Congress and Nonrenovation projects that fall outside the congressional
limitation.

Objectives. Our objective was to determine whether the Pentagon Reservation
Maintenance Revolving Fund had properly recorded and reported the costs associated
with recent construction projects at the Pentagon Reservation. The Pentagon
Reservation includes the Pentagon, the Navy Annex, and other buildings. We also
reviewed procedures and documentation used for the cost projection reported to
Congress and the management controls associated with maintaining financial databases.

Results. For financial statement purposes, the Washington Headquarters Services did
not accurately record or report the construction costs resulting from the renovation of
the Pentagon Reservation. At least $50.1 million of overhead costs associated with the
renovation were not included in the construction in progress account. Completed
projects dating back to 1992 were not transferred from construction in progress to the
real property accounts, resulting in a misstatement of at least $210.3 million. Other
errors in the real property accounts included not removing $12.1 million for the old
heating and refrigeration plant that was demolished and using incorrect methods to
calculate depreciation. As a result, the FY 2000 Pentagon Reservation Maintenance
Revolving Fund balance was misstated by at least $289.6 million (finding A).

The annual “Status Report to Congress on the Renovation of the Pentagon” did meet
the legislative reporting requirements. However, the FY 2000 Status Report could have
more clearly stated that the program management office reduced the scope of the
renovation by roughly $564.8 million. The FY 2000 Status Report to Congress only
briefly mentions the challenging financial aspects of the major construction and
renovation work conducted on the Pentagon Reservation. A more complete reporting
of the projects and costs in the Status Report to Congress should help readers appreciate
the difficulties facing the program management office under the current spending limit
(finding B). See Appendix A for details on the management control program as it
relates to controls over the recording and reporting of construction costs.

Summary of Recommendations. We recommend that the Director, Washington
Headquarters Services develop policies and procedures to accumulate overhead costs.
We recommend that the Director establish policies and procedures to transfer completed
projects and their associated overhead costs to the real property accounts. We also
recommend that the Director revise existing depreciation policies to bring them into
conformance with the Financial Management Regulation.

We recommend that the Program Manager, Pentagon Renovation Program provide a
more complete picture of all the costs associated with the renovation and major
construction efforts in future reports, regardless of classification in the Status Report to
Congress. We also recommend that the Program Manager provide more detail about
the difficult and complex changes needed to keep the program under the congressional
spending limit.

Management Comments. The Director, Washington Headquarters Services and the
Program Manager, Pentagon Renovation Program concurred with the recommendations
and initiated plans for corrective actions. See the Findings section of the report for a
discussion of the management comments and the Management Comment section for the
complete text.

Audit Response. We consider the Director, Washington Headquarters Services and
the Program Manager, Pentagon Renovation Program comments to be responsive to the
recommendations. Based on management comments, we modified our report where
appropriate. See the Finding section for the complete text of the audit response.




                                             ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objectives                                                            2

Findings
     A. Construction in Progress and Other Real Property Accounts         3
     B. The Status Report to Congress and Projected Renovation Costs      8

Appendixes
     A. Audit Process
         Scope and Methodology                                            13
         Management Control Program Review                                14
         Prior Coverage                                                   15
     B. Pentagon Reservation Maintenance Revolving Fund Guidance in the
         Financial Management Regulation                                  16
     C. Report Distribution                                               17

Management Comments
     Washington Headquarters Services Comments                            19
     Pentagon Renovation Program Comments                                 21
Background
    This audit was performed to support the requirements of Public Law 101-576,
    the “Chief Financial Officer’s Act of 1990,” November 15, 1990, as amended
    by Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. DoD real property, valued at $100.9 billion in FY 2000,
    represented 90 percent of the DoD’s $112.5 billion investment in property,
    plant, and equipment. Real property also represented 16 percent of the total
    assets reported on the FY 2000 DoD Agency-Wide Consolidated Balance Sheet.
    Consequently, the DoD must accurately report property, plant, and equipment
    in order for the Government to achieve a favorable opinion on the consolidated
    financial statements of both the DoD and the Federal Government.

    The DoD incorporated the Pentagon Reservation Maintenance Revolving Fund
    (PRMRF) into the Other Defense Organizations in the FY 2001 DoD Agency-
    Wide Financial Statements. Congress established the PRMRF by transferring
    responsibility for the operation, maintenance, and management of the Pentagon
    Reservation to the Secretary of Defense. The Pentagon Reservation consists of
    the Pentagon Office Building, Federal Building Number 2, the Pentagon heating
    and sewage treatment plants, and other related facilities. The PRMRF was
    designed to operate on a break-even basis over the long term. Funds were
    generated for the PRMRF through user charges for building space and services.

    The Pentagon Office Building has never undergone a major renovation. As a
    result, the DoD had to renovate the building in order to meet current health,
    fire, and life safety codes. The DoD also had to provide reliable electrical, air
    conditioning, and ventilating services. The FY 2000 DoD Appropriation Act
    required the Secretary of Defense to certify that the total cost for the planning,
    design, construction and installation of equipment for renovating the Pentagon
    Reservation would not exceed $1.2 billion. The fund has already financed at
    least $878.7 million of construction, though not all of which applied against the
    congressional spending limit. According to current estimates, the program
    should be completed by FY 2014.

    Office of the Deputy Secretary of Defense tasked the Pentagon Renovation
    Program with ancillary projects outside of its original scope of work. This
    requires the program management office to distinguish between renovation
    projects that fall within the $1.2 billion spending limitation set by Congress and
    nonrenovation projects that fall outside the congressional limitation.
    Furthermore, since the Pentagon was declared a National Historic Landmark in
    1992, its special status placed significant restrictions on external renovation
    activities and presented several challenges to the renovation team.

    The Secretary of Defense was given the authority to manage the Pentagon
    Reservation. DoD Directive 5110.4, “Washington Headquarters Services,”
    May 10, 1999, delegates the Washington Headquarters Services (WHS) to
    execute the Secretary of Defense’s authorities over the Pentagon Reservation.
    The WHS further split the responsibilities for the fund’s activities among its
    various divisions. The Budget and Finance Directorate processed most of the
    accounting transactions and retained the supporting documentation for the values
    reported on the financial statements. The Pentagon Renovation Program is
    responsible for renovating the Pentagon. This program management office is


                                         1
     responsible for the development and control of budgets, work schedules,
     acquisition strategy, and other tasks involved with the renovation. The U.S.
     Army Corps of Engineers had served as the design and construction manager for
     the renovation, but the Corps voluntarily withdrew from the program in
     FY 2000. The following figure shows the Pentagon Renovation reporting
     channel.



                                     Deputy Secretary of Defense




                              Director, Washington Headquarters Services




           Budget and Finance Directorate                   Pentagon Renovation Program


     Reporting Channel for the Pentagon Renovation



Objectives
     The overall objective was to determine whether the PRMRF had properly
     recorded and reported the costs associated with recent construction projects at
     the Pentagon Reservation. Specifically, we reviewed the procedures for
     collecting financial information, inspected supporting documentation for account
     balances. We determined whether construction costs were properly included in
     the DoD Agency-Wide Financial Statements. We also reviewed procedures and
     documentation used for the cost projection reported to Congress and the
     management controls associated with maintaining financial databases. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. Our review of the budgetary guidance
     provided in the Financial Management Regulation (FMR) is located in
     Appendix B.




                                            2
           A. Construction in Progress and Other
              Real Property Accounts
           For financial statement purposes, the WHS did not accurately record or
           report the construction costs resulting from the renovation of the
           Pentagon Reservation. The costs were not recorded or reported properly
           because of noncompliance with applicable regulations and weak internal
           controls. Consequently, the WHS misstated its construction in progress
           (CIP) and property accounts.

                  •   Overhead costs totaling at least $50.1 million were not
                      included in the CIP account.

                  •   Twenty-three completed construction and capital improvement
                      projects dating back to 1992 and totaling at least
                      $210.3 million were not transferred from CIP to the real
                      property account. The WHS transferred one completed
                      project improperly that resulted in a misstatement of at least
                      $16.9 million.

                  •   A $12.1 million asset demolished in 1998 was not removed
                      from the financial records.

                  •   Depreciation costs for capitalized assets were incorrectly
                      calculated and therefore misstated by at least $213,854.
           Consequently, the FY 2000 balance for the PRMRF was misstated by at
           least $289.6 million. Unless adjustments are made to correct the
           misstated accounts and internal controls are improved, PRMRF financial
           information for FY 2001 and beyond will continue to be misstated and
           unreliable.

Construction in Progress and Real Property Laws and
  Regulation
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation (FMR),”
    volume 4, chapter 6, “Accounting Policy and Procedures – Property, Plant, and
    Equipment,” dated August 2000, provides accounting guidance for property,
    plant, and equipment. The Regulation emphasizes the need for supporting
    documentation to:

           •   support financial records entered into accounting systems and
               supporting property records,

           •   record all acquisitions of property the date custody is taken,




                                         3
            •   identify and classify property that was capitalized and recorded in the
                property accountability system, and

            •   provide information to identify and account for capitalized
                improvements to property, plant, and equipment.

     The FMR also states that the cost to construct an asset should be recorded as
     CIP until the asset is completed and available for use. The CIP account should
     include direct labor, direct material, and overhead. Overhead may include the costs
     of supervision and other indirect labor, supplies and materials, transportation, and
     depreciation. Upon completion of the construction project, the accumulated costs
     should be transferred to the proper property, plant, and equipment account if the
     cost exceeds the DoD capitalization threshold of $100,000.

Policies and Procedures for Processing CIP Costs
     Although the PRMRF had financed at least $878.7 million of construction, the
     WHS did not have policies and procedures in place to accurately accumulate
     overhead costs for construction projects. The WHS did not have procedures for
     transferring completed projects out of CIP or assigning CIP costs to the
     appropriate accounts. Those problems resulted in a misstatement of at least
     $277.3 million in the CIP and other property accounts.

     Overhead Calculation. The WHS Budget and Finance Division did not include
     payroll, travel, and training costs from the program management office in the
     CIP account. Those costs may be categorized as indirect labor and are therefore
     a component of overhead. The Pentagon Renovation Program, Budget and
     Finance Directorate, and Real Estate and Facilities Directorate incurred costs
     that should have been accumulated and charged to CIP. Based on standard
     Army Corps of Engineers overhead rates for construction projects, the CIP
     account may have been understated by at least $50.1 million.
     Completed Projects. According to the U.S. Army Corps of Engineers -
     Baltimore District records, the Corps of Engineers completed 24 major projects
     for the Pentagon Renovation Program. The earliest project was completed
     in 1992. Statement of Federal Financial Accounting Standard No. 6 states that a
     constructed building shall be recorded as construction work in process until it is
     placed in service. Then, the balance should be transferred to general property,
     plant, and equipment.

     The Corps of Engineers considered those projects substantially complete and
     issued DD Forms 1354, “Transfer and Acceptance of Military Real Property,”
     to the WHS. In accordance with the FMR, DoD components may use the
     DD Form 1354 to support the acquisition of completed property transferred into
     property accounts. The WHS Budget and Finance Directorate never received
     those forms. Consequently, the WHS did not transfer at least 23 completed
     projects out of CIP resulting in a misstatement in both the CIP and other real




                                           4
     property accounts of at least $210.3 million. By not transferring the completed
     projects, the WHS also had an undeterminable understatement in the
     depreciation accounts.

     Transferred Projects. After completing the heating and refrigeration plant, the
     WHS transferred $79.9 million out of the CIP account. The WHS sent direct
     citation funds to the Corps of Engineers to finance this project and used
     reimbursable funds for all the other projects. This allowed the WHS to simply
     query their ledgers to identify the direct citation funds associated with the
     building. Then, the WHS transferred that amount into the building account.

     According to the DD Form 1354 prepared by the Corps of Engineers for this
     project, the new heating and refrigeration plant had a total cost of $96.8 million.
     This amount differed materially from the $79.9 million that the WHS had posted
     in its ledgers. Presumably, the Corps of Engineer allocated additional costs that
     were financed by the reimbursable funding documents that they received from
     the WHS, but the WHS may have accidentally expensed some of the initial
     planning and design cost. The WHS Budget and Finance Directorate stressed
     that if they had received the DD Form 1354 from the Corps of Engineers, they
     would have properly recorded this asset in the accounting system.

     The WHS transferred the cost of the new heating and refrigeration plant and its
     equipment to the building account, and they assigned it a 20-year depreciable
     life. The FMR states that new buildings have a 40-year life and power
     generators have a 20-year life. The WHS treated the new plant and its
     equipment as one asset, a power generator, because they did not know how to
     allocate the construction costs between the generator and the building. If the
     accounting division had received the DD Form 1354 that details the cost of the
     plant and its equipment, the WHS may have transferred the CIP costs into the
     appropriate real property accounts.

     For the completed plant, the WHS understated the property accounts by at least
     $16.9 million. They also assigned the wrong depreciation life, resulting in an
     undeterminable understatement in the depreciation accounts.

Policies and Procedures for Real Property Accounts
     The WHS did not have written policies and procedures in place to accurately
     remove deleted assets from the property accounts or to depreciate buildings
     reported on the financial statements. Those problems created a misstatement of
     at least $12.3 million in various real property accounts.

     Removing Deleted Assets. After the construction of the new heating and
     refrigeration plant in 1998, the WHS demolished the old heating and
     refrigeration plant. While the WHS fully depreciated the old plant, the WHS
     did not remove this demolished asset from their property records. As a result,
     this cost continued to reside in their financial statements. The WHS did not
     remove this asset from their records because they were not aware that they
     should remove demolished assets. As a result of this oversight, the buildings
     and accumulated depreciation accounts were overstated by at least
     $12.1 million.



                                          5
    Depreciation Policy. The WHS improperly calculated depreciation in its real
    property accounts because the accounting system used an unapproved method.
    According to guidance issued by the DoD Comptroller, DoD components should
    have used a monthly depreciation method for assets acquired before
    October 1998. According to this method, assets are depreciated starting on the
    first day of the month following their acquisition or the date the asset is installed
    and ready for use. The WHS used a daily depreciation method. By using this
    method, the accounting system started depreciating assets on the day that they
    were acquired.

    The accounting system also depreciated certain capital improvements throughout
    FY 2000. However, since those assets were in the final year of their useful life,
    the accounting system should have only depreciated those assets for a portion of
    the year. This resulted in a $213,854 misstatement in the deprecation accounts.
    At the end of FY 2000 those assets were fully depreciated, and therefore this
    will have no future effect on accumulated depreciation.

    For all new assets, the FMR requires DoD agencies to calculate depreciation
    either on a Mid-Year or Month Available for Service Method. Under the
    Month Available for Service Method, agencies start calculating depreciation
    expense the month that the asset is “available for use.” Under the Mid-Year
    Convention Method, agencies calculate and expense 6 months of depreciation in
    the first and last year of an asset’s useful life, regardless of the actual month the
    asset was placed or removed from service. The FMR does not specifically
    permit the daily depreciation method used by the WHS.

Conclusion
    Because of poor communication among the WHS directorates receiving the
    completed DD Forms 1354 and the Budget and Finance Directorate, the WHS
    did not properly transfer completed projects out of the CIP account. Improved
    coordination among the WHS directorates involved with the construction
    projects on the Pentagon Reservation would result in accurate overhead
    calculations and timely transfer of completed projects out of the CIP account. In
    addition, several errors in the real property accounts were caused by not
    following the guidance provided in the FMR. Many of those errors could have
    been avoided by developing and following written procedures for processing
    CIP and other real property information.

Management Comments on the Finding and Audit Response
    Management Comments. The Director, Washington Headquarters Services
    noted that the old heating and refrigeration plant had no net effect on the
    financial statements because it was fully depreciated. The Director also stated
    that when the DoD revised its deprecation policies, the DoD directed its
    components to continue depreciating their assets using the prior guidance rather
    than adjusting them to the new policies.



                                          6
    Audit Response. Although the old heating and cooling plant was fully
    depreciated, the individual account balances will continue to be misstated until
    the demolished asset is removed from the financial statements.

    The Washington Headquarters Service correctly noted that the assets acquired
    before 1998 should be depreciated according to the older guidance.
    Nevertheless, based on additional information obtained, the Washington
    Headquarters Services Allotment Accounting System used a depreciation method
    that did not conform to the older depreciation guidance.

Recommendations and Management Comments
    A. We recommend that the Director, Washington Headquarters Services:

           1. Develop policies and procedures to accumulate and allocate
    overhead costs associated with the capital improvement projects to specific
    capital improvement projects in proportionate amounts.

    Management Comments. The Director concurred and agreed to develop
    procedures for applying overhead to all construction in progress projects.

           2. Establish policies and procedures to properly transfer completed
    construction projects from the construction in progress account to the real
    property accounts. The procedures should also include a process for
    creating and retaining appropriate supporting documentation for both
    additions and deletions to the real property account.

    Management Comments. The Director concurred and agreed to develop a
    property transfer form similar to the DD Form 1354, Transfer and Acceptance
    of Military Real Property. The form will identify the appropriate construction
    costs to be used in transferring completed projects from the construction in
    progress account to the real property accounts.

           3. Revise existing depreciation policies to bring them in conformity
    with volume 4, chapter 6 of the Financial Management Regulation,
    “Accounting Policy and Procedures – Property, Plant, and Equipment.”

    Management Comments. The Director concurred and agreed to reprogram the
    Washington Headquarters Services Allotment Accounting System so that it uses
    the proper depreciation policies.




                                        7
            B. The Status Report to Congress and
               Projected Renovation Costs
            The annual Status Report to Congress did meet the legislative intent of
            section 2674, title 10, United States Code (10 U.S.C. 2674). However,
            the FY 2000 “Status Report to Congress on the Renovation of the
            Pentagon,” dated March 1, 2000, only gives brief mention to the
            financial aspects of individual Renovation projects. The report also
            primarily focuses on the cost of renovating the Pentagon Office Building
            and not the cost of all the major construction work performed on the
            Pentagon Reservation. The WHS limited their discussion of the
            Nonrenovation projects because according to 10 U.S.C. 2674, the Status
            Report to Congress does not have to include the cost of Nonrenovation
            projects. The Nonrenovation efforts may cost as much as $1.7 billion
            from FY 2000 to FY 2015. By including additional details about the
            Nonrenovation efforts and the specific Renovation projects, future Status
            Reports to Congress could present a more complete picture of the
            difficult aspects of the renovation and major construction efforts
            conducted on the Pentagon Reservation.

Sufficiency of the Information Provided in the FY 2000 Status
  Report to Congress
     According to 10 U.S.C. 2674, the Secretary of Defense must submit a report to
     Congress on a yearly basis regarding the status of the renovation of the
     Pentagon Reservation. The report should include a plan for the renovation work
     that will be conducted during that fiscal year. Since the creation of the
     PRMRF, numerous construction projects have been completed on the Pentagon
     Reservation. As the renovation efforts progressed, the construction
     management team encountered numerous unexpected complications such as
     diesel fuel contamination and unmapped electrical wiring. Other issues further
     complicated the program management office’s ability to complete major
     construction efforts on the Pentagon Reservation. For example, the work
     performed by the Pentagon Renovation Program also addressed many other
     construction projects that the WHS stated did not fall under the congressional
     spending limit. For example, the new heating and refrigeration plant and many
     security driven additions integrated into the building do not fall under the
     spending limit. The program management office also agreed to serve as the
     construction agent for various other ancillary projects on the Pentagon
     Reservation, such as the Remote Delivery Facility and the Heliport Fire Station
     and Control Tower.

     The Pentagon Renovation Program has categorized the major construction
     projects as “Renovation Ceiling” or “Nonrenovation.” The Renovation Ceiling
     category includes those items that apply to the congressional spending limit.
     Nonrenovation projects include the major construction efforts that do not apply



                                        8
     to the congressional spending limit. The Remote Delivery Facility and the
     Heliport Firestation and Control Tower are examples of the Nonrenovation
     projects.

     Renovation Ceiling Costs. The FY 2000 Status Report to Congress primarily
     discussed the renovation of the building. The report also only briefly discussed
     the total obligations incurred to date for the Renovation Ceiling, which should
     cost approximately $642.2 million from FY 2000 to FY 2015. The report did
     not discuss the cost of the specific renovation projects. 10 U.S.C. 2674 does
     not specifically require the report to include cost information for the major
     projects, such as the Metro Entrance Facility. However, including such data
     would help the readers understand how the program management office is
     managing the challenges required by the spending limit.

     Nonrenovation Costs. The FY 2000 Status Report to Congress does not
     provide an estimated cost of the Nonrenovation projects. From FY 2000 to
     FY 2015, this category may cost as much as $1.7 billion. The annual budget
     submission does discuss the cost of the major Nonrenovation projects.
     However, it does not present the total major construction costs that will be
     incurred throughout the life of the program. The WHS appropriately interpreted
     10 U.S.C. 2674 and the congressionally imposed spending limit. As such, the
     Status Report to Congress is only required to discuss the Renovation Ceiling
     category, which consists of the costs of planning, design, construction and
     installation of equipment. However, all the major construction projects,
     regardless of their classification, are part of a major effort to modernize the
     Pentagon Reservation. Furthermore, they are primarily managed through the
     Pentagon Renovation Program.

     The FY 2000 “Status Report to Congress on the Renovation of the Pentagon”
     did meet legislative intent of 10 U.S.C. 2674. The Status Report to Congress
     briefly discussed the Nonrenovation projects. Including additional cost
     information would present a more complete picture of the major construction
     efforts undertaken and challenges managed by the program management office.
     Including all the Pentagon Reservation major construction projects and their
     costs in the Status Report to Congress could also help readers appreciate the
     difficult project undertaken by the program management office.

Effects of the Initial Renovation Cost Projections
     The Pentagon Renovation Program acknowledged that the $1.2 billion
     congressional spending ceiling represented an extreme challenge that would be
     difficult to achieve. Some of this difficulty resulted from not accounting for
     inflation costs in the initial projected budget for the renovation. As previously
     explained, the construction management team also encountered unexpected
     construction complications. For example, typical environmental abatement costs
     $6 to $10 per square foot. In comparison, environmental abatement at the
     Pentagon has cost roughly $25 per square foot due to lead based paint, asbestos,
     and mercury in the building. Furthermore, since the Pentagon was declared a
     National Historic Landmark, its special status placed significant restrictions on
     external renovation activities. It also presented several challenges to the
     renovation team.



                                         9
To stay within the spending limit, the Pentagon Renovation Program responded
by taking aggressive cost reduction initiatives. Furthermore, the Deputy
Secretary of Defense, in his memorandum “Guidance for Continuing the
Pentagon Renovation Program” dated May 17, 2000, directed the Program
Management Office to prepare the basement for future use. This involved
removing hazardous material and installing utilities but not preparing it for
actual tenant use. Consequently, the program management office conducted an
analysis of new construction initiatives, methods to use space more efficiently,
and reconfigurations of planned furniture.

Based on plans prepared at the end of 1999, the program management office
reduced the scope of the renovation by roughly $564.8 million. They made
those changes by:

       •   recategorizing costs to the Nonrenovation category,
       •   leaving portions of the building unfinished,
       •   reducing the scope of the program, and
       •   changing their contracting methodology.

As the following table indicates, $300 million of those changes may affect the
functionality and the operations and maintenance costs of the building in the
long term.

                 Reduced Scope of the Pentagon Renovation
                               (in millions)
             Renovation Project                                Cost
             Leave Pentagon basement unfinished              $213.93
             Install two major escalators rather than five      2.36
             Eliminate fifteen elevators                        5.16
             Eliminate tenant fit-out contingency               1.98
             Eliminate construction contingency                 7.70
             Install cheaper locks                              0.16
             Move / reduce Military Command Centers            39.00
             Reduced core / shell (increases maintenance)       7.72
             Reduce building air flow control                   6.00
             Do not repair building light wells                16.00
              Total                                          $300.01


The FY 2000 Status Report to Congress states that the program would not
achieve some of the work and goals previously reported to Congress. The
Pentagon Renovation Program will improve building operations and efficiency
and improve the quality of life for building tenants. However, the report did not
discuss the magnitude of the changes needed to keep the program within the
congressionally mandated spending limit.



                                     10
    Similarly, the program management office reduced the scope of the
    Nonrenovation efforts by roughly $541.2 million. Those changes could have
    been more clearly reported in the FY 2000 Status Report to Congress. Even
    though the program management office was not required to report those costs,
    many of the Nonrenovation initiatives are related to the challenging effort to
    renovate the Pentagon Reservation. The reduced scope of the program had a
    sizable impact on the renovation efforts.

    Furthermore, if the DoD attempts to complete the unfinished construction work
    (such as the basement and light wells) after the Pentagon Renovation Program
    finishes the “capped” renovation efforts, it could be more expensive for the
    Government. To perform the canceled projects after the renovation, the WHS
    would have to recreate the management structure and construction team that was
    in place during the renovation. The report will present a more complete picture
    of the difficulties associated with the renovation by including the following
    information:

           •   the reduced scope,

           •   the cost of those items, and

           •   the effects on future operations and maintenance costs caused by
               those changes.



Management Comments on the Finding and Audit Response
    Management Comments. The Program Manager, Pentagon Renovation
    Program noted that the Pentagon Renovation Program performed an analysis of
    the project. They determined that all Pentagon employees temporarily housed
    outside the building could be moved back into the Pentagon without finishing the
    remaining segments of the basement. In addition, the Program Manager stated
    that the design alternatives and cost estimates had not been specifically approved
    or implemented. Thus, the Program Manager stated that they should be
    removed from the report.

    Audit Response. The Pentagon Renovation Program did not officially approve
    or implement the design alternatives listed in the report. However, they did
    indicate the magnitude of significant evaluations and decisions made by the
    Pentagon Renovation Program. Excluding those cost estimates would minimize
    the magnitude and significance of the designs considered and rejected.
    Including those cost estimates illustrates the difficulties faced by the Program
    Management Office under the current spending limit. It also highlights the
    potential long term costs and benefits of the current plans.




                                        11
Recommendations and Management Comments
    B. We recommend that the Program Manager, Pentagon Renovation
    Program:

           1. Prepare future Status Reports to Congress so they specifically
    identify the cost of major Renovation projects.

    Management Comments. The Program Manager concurred and agreed to
    provide specific detail in the Fiscal Year 2002 Status Report to Congress.

           2. Evaluate the appropriateness of:

                 a. Including an estimated cost for Nonrenovation projects in
    the Status Report to Congress.

    Management Comments. The Program Manager concurred and agreed to
    evaluate the appropriateness of including an estimated cost for Nonrenovation
    projects in the Status Report to Congress. The Program Manager indicated that
    this would be an iterative process because of the emergent nature of some
    Nonrenovation project taskings.

                  b. Providing more detail in the Status Report to Congress
    about the reduced scope of the Renovation and the effect it might have on
    the functionality or the operations and maintenance of the building.

    Management Comments. The Program Manager concurred and agreed to
    evaluate possible reductions in scope and the resulting effect. The evaluation
    will include determining the appropriateness of including this information in
    future Status Reports to Congress.




                                       12
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We evaluated whether the PRMRF had properly recorded
    and reported the CIP costs. We also evaluated and reviewed the procedures and
    documentation used for cost projection and information reported to Congress in
    the FY 2000 Status Report to Congress. We reviewed the financial guidance
    provided by the Under Secretary of Defense (Comptroller) through the FMR.
    We inspected the PRMRF financial data sent to the Defense Finance and
    Accounting Service. At the U.S. Army Corps of Engineers - Baltimore
    District, we reviewed the financial process used to prepare the DD Forms 1354
    and tested the supporting documents for the construction projects completed by
    the Corps.

    We tested the accuracy of the $798.8 million CIP balance recorded in the
    FY 2000 year-end balance of the WHS Allotment Accounting System. We
    inspected the supporting documentation for the $179.8 million buildings account
    reported on the FY 2000 trial balance and the relevant real property accounting
    policies and procedures.

    We reviewed the management control programs for the Defense Finance and
    Accounting Service, U.S. Corps of Engineers - Baltimore District, and the
    WHS Budget and Finance Directorate. To assess the adequacy of the FY 2000
    Status Report to Congress, we reviewed the process and supporting
    documentation for the cost projections used by the Pentagon Renovation
    Program. Furthermore, we assessed the adequacy of the information disclosed
    in the report by comparing the program’s internal documents, the fund’s budget
    documents, and the requirements of the United States Code.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the achievement of the following goal, subordinate performance goal, and
    performance measure.

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-02)

          •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)

          •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                          −DoD-2.5.2.).
              on financial statements. (01−




                                       13
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to the achievement of the following functional area objective and
    goal.

           • Financial Management Area. Objective: Strengthen internal
             controls. Goal: Improve compliance with the Federal Manager’s
             Financial Integrity Act. (FM-5.3)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the WHS Allotment Accounting System used to maintain financial records
    for various appropriations and funds, including the PRMRF. We performed
    extensive tests on the database by tracing sampled data from the system to
    source documentation. We found the data reliable. However, as shown in the
    report, the balances of the CIP and real property accounts were found unreliable
    due to noncompliance with applicable regulations.

    Audit or Evaluation Type, Dates, and Standards. We performed this audit
    from June 2000 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides a reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of WHS management controls over the accountability for construction
    costs. Specifically, we reviewed the WHS Budget and Finance Directorate
    management controls over recording CIP and real property costs into the WHS
    Allotment Accounting System. We also reviewed WHS FY 2000 Annual
    Statement of Assurance. We reviewed management’s self-evaluation applicable
    to those controls.



                                       14
    Adequacy of Management Controls. We identified a material management
    control weakness for the WHS Budget and Finance Directorate as defined by
    DoD Instruction 5010.40. The Budget and Finance Directorate’s management
    controls for recording and reporting construction costs, specifically the CIP and
    real property accounts, were not adequate. The controls did not ensure that the
    PRMRF CIP account included all of the applicable construction costs. The
    controls did not ensure that completed construction projects were properly
    transferred into the appropriate real property accounts. If implemented,
    Recommendation A will improve the accuracy and reliability of the financial
    reports. A copy of this report will be provided to the senior official responsible
    for management controls in the WHS.

    Adequacy of Management’s Self-Evaluation. WHS did not identify recording
    and reporting construction projects as an assessable unit. It did not identify or
    report the material management control weaknesses identified by the audit.
    Until it is corrected, future construction projects will result in errors in the CIP
    and real property accounts.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                         15
Appendix B. Pentagon Reservation Maintenance
            Revolving Fund Guidance in the
            Financial Management Regulation
   The DoD incorporates the PRMRF into the Other Defense Organizations in the
   General Fund financial statements. However, because it was designed to
   operate on a break-even basis and collects funds through user charges, it
   functions like a Working Capital Fund.

   Several chapters in the FMR discuss revolving funds and specifically mention
   the PRMRF. In those chapters, the fund’s guidance has become outdated or
   provides conflicting definitions. For example, one part of the FMR describes
   the PRMRF as an intergovernmental revolving fund while another section
   describes the fund as a public enterprise fund.

   The FMR also provides unclear budgeting data. Volume 2B, chapter 10
   explains how to prepare a budget for the PRMRF, but it does not explain how to
   account for major construction. While a budget analyst could rely on volume
   2B, chapter 6, “Military Construction/Family Appropriations,” the FMR did
   not specifically refer the reader to this section. Moreover, this section was
   designed for construction funded by appropriations. The PRMRF primarily
   collects its funds through user charges.

   The Office of the Deputy Comptroller (Program/Budget) stated that they were
   considering revising the FMR to provide clearer guidance for the WHS.




                                     16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Washington Headquarters Services
Program Manager, Pentagon Renovation Program

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Washington Headquarters Services
Comments
                                   Final Report
                                    Reference




                                   Revised




                  19
20
Pentagon Renovation Program Comments
                                       Final Report
                                        Reference




                                       Revised,
                                       Page 10




                    21
22
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Monica S. Rice
Timothy M. Nelson
Christopher A. Ulrich
Crystal A. Oliver
Stephen G. Wynne
